IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
No.
BYRON BROWN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, BYRON BROWN, by and through his appointed counsel, moves
pursuant to Supreme Court Rule 39.1, for leave to proceed in forma pauperis before this
Court. In support of the motion, the Petitioner states that the Petitioner has been
granted in forma pauperis status following submission of a financial affidavit throughout
the trial court and appellate court proceedings below, and has been represented , under
the Criminal Justice Act of 1964 (18 U.S.C. § 3006A), by appointed counsel throughout
the same proceedings. Further, Petitioner is in federal custody, and remains without
sufficient funds to afford counsel or payment of costs on writ of certiorari to this Court.
Attached hereto is the affidavit of Petitioner’s counsel of record verifying the
appointment under the Criminal Justice Act.

WHEREFORE Petitioner respectfully prays that an order be entered granting
Petitioner leave to proceed in forma pauperis.

/s/ Gregory T. Mitchell
Gregory T. Mitchell
Counsel of Record

November 23, 2020

Gregory T. Mitchell
Law Office of Gregory T. Mitchell, P.C.
18141 Dixie Highway, Suite 115
Homewood, Illinois 60430
(708) 799-9325
Mitchlaw00@comcast.net

AFFIDAVIT
Gregory T. Mitchell, being first duly sworn on oath, deposes and says that he is
an attorney admitted to practice law before the United States Court of Appeals for the
Seventh Circuit and the United States District Court for the Northern District of Illinois.
He further states that he was appointed by the Court of Appeals for the Seventh
Circuit and by the Northern District of Illinois, pursuant to the Criminal Justice Act, to
represent the Petitioner, Byron Brown, in the proceedings before those courts on
account of Petitioner’s indigent status.
Petitioner has been in continuous custody throughout the proceedings below
since he was taken into federal custody on the day of his arraignment, October 21, 2013,
and remains in federal custody. Petitioner is without funds to afford the costs of
proceeding before this Court.

VERIFICATION
Under penalties of perjury as provided in 28 U.S.C. § 1746, I certify that the
statements herein are true and correct to the best of my knowledge.

/s/ Gregory T. Mitchell
Gregory T. Mitchell

